                                    TABLE OF CONTENTS

INTRODUCTION                                                             1

                       PURPOSE                                           1
                       BACKGROUND                                        1
                       SCOPE AND METHODOLOGY                             3


RESULTS OF THE REVIEW                                                   5

                       STATUS OF OIG RECOMMENDATIONS FROM 1997 REPORT    5
                          Recommendation 1                               5
                          Recommendation 2                               7
                          Recommendations 3 and 4                        9


CONCLUSION                                                              12




U.S. Department of Justice                                               i
Office of the Inspector General
Evaluation & Inspections Division
                                    INTRODUCTION


Purpose

      In 1997, the Office of the Inspector General (OIG) issued an inspection
report, Immigration and Naturalization Service Monitoring of Nonimmigrant
Overstays (Report Number I-97-08), which assessed the Immigration and
Naturalization Service’s (INS) monitoring of nonimmigrant visitors who stay in
the United States beyond the period of time permitted by their status at entry
(overstays). The report also examined the INS’s Nonimmigrant Information
System (NIIS), its principal database for identifying overstays. In the report, we
found that the INS often could not conclusively identify individual
nonimmigrant overstays, that the INS could not adequately describe the
characteristics of the overstay population in the United States, and that the
INS did not have an enforcement strategy that effectively targeted overstays.
Furthermore, we determined that NIIS was not producing reliable overstay
data, either in the aggregate or for individual nonimmigrants.

      The original OIG report made recommendations to improve the collection
and analysis of available data on overstays, to improve the reliability of NIIS
data, and to develop an effective enforcement strategy targeted at overstays. In
the wake of the September 11 terrorist attacks, the OIG conducted several
follow-up reviews of prior OIG reports to determine what progress the INS had
made to address the recommendations in those reports. This follow-up review,
which is the fifth in the series of follow-up reports,1 evaluated the INS’s
progress in implementing the recommendations from our 1997 report on the
INS’s monitoring of nonimmigrant overstays.

Background

      The INS inspected over 35 million nonimmigrants at approximately 133
air ports of entry (POE), approximately 1 million at sea POEs, and an additional
195 million nonimmigrants at land POEs in fiscal year (FY) 2001. The INS
regularly collects information to evaluate the effectiveness of its enforcement of
immigration laws, including nonimmigrants’ status at admission to the United
States and the duration of their stay in this country.


        1 The four reports already issued are “Follow-Up Report on the Visa Waiver Program

(December 2001),” “Status of IDENT/IAFIS Integration (December 2001),” “Follow-Up Report on
Improving the Security of the Transit Without Visa Program (December 2001),” and “Follow-Up
Report on the Border Patrol’s Efforts to Improve Security Along the Northern Border (February
2002).”
U.S. Department of Justice                                                                 1
Office of the Inspector General
Evaluation & Inspections Division
      NIIS is the INS’s primary information system to track whether
nonimmigrants have entered or left the United States. The INS Form I-94,
Arrival/Departure Record, is the primary source of information entered into
NIIS. Form I-94 is divided into two parts – an arrival portion that includes the
nonimmigrant’s name, date of birth, passport number, airline, flight number,
country of citizenship, and address while in the United States, and a departure
portion that includes the alien’s name, date of birth, and country of citizenship.
Each Form I-94 contains a unique admission number printed on both portions
that the INS uses to record and match the arrival and departure records of
nonimmigrants. The INS furnishes the Form I-94 to the airlines to give to
nonimmigrants to complete. Upon arrival at a POE, the nonimmigrants
present the form to immigration inspectors for review at the same time they
present their passports or other travel documents. The immigration inspectors
retain the arrival portions of the Form I-94 and the nonimmigrants retain the
departure portions. The departure portions are supposed to be collected by
representatives of the airlines and turned over to the INS upon the
nonimmigrants’ departure from the air POE. The INS forwards both the arrival
and departure portions to contractors who enter the information from the
forms into NIIS.

       NIIS captures data on only about 15 percent of all nonimmigrant entries
into the United States, primarily aliens entering through air and sea POEs and
some aliens entering through land POEs. Canadians and Mexicans crossing at
land POEs, who constitute 85 percent of nonimmigrant entries, are generally
exempt from the Form I-94 requirements.

       The INS estimates the current illegal alien population to be
approximately 7 million.2 The common perception that the vast majority of
illegal aliens entered the United States by surreptitiously crossing the
southwest or northern border is inaccurate. INS officials have testified before
Congress that 40 to 50 percent of the illegal alien population entered the
United States legally as temporary visitors but failed to depart when required.
The INS commonly refers to these illegal aliens as nonimmigrant overstays, and
according to the INS this population is growing by at least 125,000 a year.

     In 1996, Section 110 of the Illegal Immigration Reform and Immigrant
Responsibility Act (IIRIRA) directed the INS to develop an automated entry-exit

        2 Data from the 2000 Census suggests the number may be at least 8 million. Scholars

at Boston’s Northeastern University estimated the number as close to 13 million in a February
2001 study, An Analysis of the Preliminary 2000 Census Estimates of the Resident Population
of the U.S. and Their Implications for Demographic, Immigration, and Labor Market Analysis
and Policymaking.

U.S. Department of Justice                                                                  2
Office of the Inspector General
Evaluation & Inspections Division
tracking system that collects a record of departure for every alien and matches
it with a record of the alien’s arrival. The system also was required to have an
on-line capability to identify nonimmigrant overstays and produce reports of
the results of the matching by country. This overstay information was to be
integrated into databases of the INS and the Department of State, including
those used at POEs and at consular offices.

       However, the Canadian government and some northern border members
of Congress opposed the entry-exit system requirement on grounds that it
would adversely affect the movement of goods and people across the northern
border. In 1998, Congress amended Section 110 to state that the system
should not significantly disrupt trade, tourism, or other legitimate cross-border
traffic at land POEs. In June 2000, the Data Management Improvement Act
(DMIA), Public Law 106-215, further amended Section 110 to bar the
imposition of any new documentary or data collection requirements to satisfy
the requirements of Section 110, including requirements on aliens for whom
documentary requirements have been waived (i.e., Canadians), or requirements
that are inconsistent with the North American Free Trade Agreement. The
amended Section 110 set the following deadlines for development of the entry-
exit system: December 31, 2003, for airport and seaport POEs; December 31,
2004, for the 50 high-traffic land border POEs; and December 31, 2005, for the
remaining POEs.

      After the terrorist attacks of September 11, 2001, the effectiveness of
monitoring nonimmigrant visitors came under additional scrutiny, as
authorities considered how to identify and locate terrorists who might be in the
United States. The USA Patriot Act of 2001, enacted on October 26, 2001,
requires that the integrated entry-exit control system be implemented with all
deliberate speed and that the Attorney General, the Office of Homeland
Security, and others immediately establish an Integrated Entry and Exit
System Task Force to accomplish this task. The USA Patriot Act also mandates
a focus on biometric technology and development of tamper-resistant
documents that will be machine readable at POEs. Further, it requires that the
system interface with law enforcement databases and provide access for federal
law enforcement authorities so that they can identify and detain individuals
who pose a threat to national security.

Scope and Methodology

       For this follow-up report, we reviewed recent INS correspondence,
conducted extensive research of legislation related to entry-exit alien control
systems and the Visa Waiver Program (VWP), and reviewed Congressional
Research Service reports and Congressional testimony. The INS Statistics
U.S. Department of Justice                                                        3
Office of the Inspector General
Evaluation & Inspections Division
Office provided the OIG with INS-wide inspection data from air, land, and sea
POEs for FY 1999 through FY 2001. We also interviewed INS officials, including
officials from the INS Inspections and Statistics offices and the Program
Manager at the INS Lookout Unit, as well as Department of State personnel.




U.S. Department of Justice                                                  4
Office of the Inspector General
Evaluation & Inspections Division
                                    RESULTS OF THE REVIEW


       In this follow-up review, we found that since our 1997 report the INS has
not taken effective action to address the recommendations in our report. We
found that the INS has not improved the reliable collection of I-94s, particularly
the departure records; the INS does not actively monitor airline compliance
with the requirement to provide correct and complete departure I-94s; and the
INS has not yet implemented the regulations to fine airlines that fail to comply.
The NIIS data collected by the INS is not reliable and therefore cannot be used
by the Attorney General to certify participation in the VWP. In addition, the
INS still has no automated system to provide the necessary support for an
effective enforcement strategy that would be a deterrent against nonimmigrant
overstays who remain in the United States or a strategy that would assist in
finding them.

Status of OIG Recommendations from 1997 Report

Recommendation 1

        Improve the collection of departure records by working with airlines to
        promote compliance, actively monitoring carrier compliance, and fining
        noncompliant airlines.

      In our 1997 report, we determined that NIIS did not contain departure
records for a large number of aliens, most of whom the INS believed had left
the United States. The INS believed most of these unrecorded departures
resulted from either the failure of the airlines to collect Form I-94s from
departing nonimmigrants or from nonimmigrants departing the United States
through land POEs. Lack of departure records means that the INS is unable to
determine with certainty the number of overstays or which apparent
nonimmigrant overstays are true overstays.

       The INS attempted to determine the scope of the deficiencies by testing
collection of I-94s at certain airports and for certain airline carriers. The INS
planned to develop an on-site airline-specific training module based on the
results of the tests, and enhance airline compliance by initiating fines.3 In
January 1998, while awaiting the test results, the INS disseminated

         3 The INS wanted to determine if the failure to return departure records was limited to a

particular carrier at individual POEs, many or all airlines at a particular POE, or particular
airlines nationwide. The INS is authorized by Section 231 of the Immigration and Nationality
Act (INA) to fine airlines $300 for each complete and accurate Form I-94 departure record they
fail to provide to the INS.
U.S. Department of Justice                                                                      5
Office of the Inspector General
Evaluation & Inspections Division
information sheets for airlines and POEs on the proper procedure for
completion, collection, and submission of Form I-94s to the INS. This interim
measure was intended to help the carriers reduce or eliminate Form
I-94 errors as a cause for the failure to successfully match arrival and
departure records in NIIS.

      To test the collection of I-94s the INS prepared an arrival/departure
comparison chart from NIIS sample data and, using this data, selected two
POEs in each region to validate the comparison data. The validation involved
monitoring the submission of departure forms by specific airlines for one
month. The INS completed the analysis in August 2000 and determined that
most airlines were not submitting complete and accurate departure
information on a substantial number of the departure records, which prevented
the INS from matching arrival and departure records. The INS found that the
problems were not specific to an airline or a POE. Based on this analysis, the
INS developed an airline-training program to improve the collection of Form
I-94s and to enhance the accuracy of the information on the forms. The INS
provided information about this training program to the OIG on December 14,
2001. However, the INS did not implement the training program because it
had been waiting for fuller deployment of the INS’s Automated I-94 System
(discussed later).

        To improve airline compliance with the completing, collecting, and
delivering of Form I-94s to the INS, the INS also sought to clarify its policy for
imposing fines on airlines for non-compliance with Section 231(d) of the INA,
(i.e., the airlines’ failure to turn in complete and accurate departure I-94s). The
Federal Register Notice of the INS’s intent to fine noncompliant airlines was
published in November 1998. However, according to the INS, it cannot impose
the fines until it amends Title 8, Section 231 of the Code of Federal Regulations
(CFR) to promulgate rules for imposing fines. As of January 2002, the INS had
not finalized such an amendment. An INS official told the OIG that the
amendment was indefinitely delayed because it is tied to the Automated I-94
System that was to be used to determine airline compliance. But as we discuss
in the next section of this report, a November 2001 cost-benefit analysis of the
Automated I-94 System by the INS recommended that it be discontinued in
favor of the effort to develop the integrated entry-exit control system mandated
by the USA Patriot Act. If the recommendation is accepted, it is not clear what
the immediate effect would be on the effort to amend the CFR regulations and
impose fines on the airlines.

     In summary, since issuance of our 1997 report, the INS has not
implemented measures to ensure that the airlines collect accurate and
complete Form I-94s from all arriving and departing nonimmigrants, has not
U.S. Department of Justice                                                       6
Office of the Inspector General
Evaluation & Inspections Division
implemented the airline training program, and has not published the
amendment to the CFR to fine non-compliant airlines.

Recommendation 2

        Implement a course of action that will ensure complete and reliable NIIS
        data. NIIS data must be sufficiently complete and reliable to meet the
        requirements of the Illegal Immigration Reform and Immigrant
        Responsibility Act of 1996 (IIRIRA) and to enable the Attorney General to
        fully perform his responsibilities under the Visa Waiver Pilot Program
        (VWPP).4

       The INS planned to rely on its Automated I-94 System to satisfy this
recommendation. The INS hoped that its Automated I-94 System would
provide the INS with the capability to match automated departure records for
aliens departing the United States with their automated arrival records. This
would enable the INS to identify overstays. However, the success of the
Automated I-94 System is highly reliant on the cooperation and participation of
the airlines in ensuring accurate arrival data at passenger check-in and
promptly collecting and providing departure information. The prototype
Automated I-94 System operated at four airports with two airlines.

       The INS planned implementation of the Automated I-94 System in two
stages, beginning with major airports in FY 2001. This would have provided
the INS with the ability to capture arrival and departure information for
approximately 87 percent of all aliens arriving by air. Full implementation at
all U.S. airports was planned for FY 2002. In September 2000, however, INS
officials informed the OIG that implementation of both stages has been delayed
until FY 2002 and FY 2003, due to problems encountered with the pilot
program and budget constraints.

      The OIG Audit Division issued a report in August 2001 entitled
“Automated I-94 System (Report Number 01-18),” which concluded that the
INS had not properly managed the Automated I-94 System project. Despite
having spent$31.2 million on the system from FY 1996 to FY 2000, the INS did

        4 In October 2000, the INA was amended to permanently authorize the Visa Waiver Pilot
Program. This act is referred to as the Visa Waiver Permanent Program Act (VWPPA), and its
provisions supersede the Attorney General’s responsibilities that we refer to in the
recommendation. However, under the permanent act, the entry-exit system must be sufficient
to allow, for each program country each fiscal year, the calculation of the portion of nationals
of that country for whom no departure record exists (i.e., overstays). We describe the INS’s
handling of the Visa Waiver Program in our report entitled “The Potential for Fraud and the
INS’s Efforts to Reduce the Risks of the Visa Waiver Pilot Program (March 1999)” and our
follow-up report entitled “Follow-up Report on the Visa Waiver Program (December 2001).”
U.S. Department of Justice                                                                    7
Office of the Inspector General
Evaluation & Inspections Division
not have clear evidence that the system would meet its intended goals. The
INS estimated that an additional $57 million would be needed through FY 2005
to complete the system. The OIG recommended that the INS conduct a cost-
benefit analysis of the Automated I-94 System prior to making any further
expenditures.

       The INS issued its cost-benefit analysis on the Automated I-94 System on
November 28, 2001. The analysis concluded that if the INS spent the
additional $57 million to redesign the system and fix the known problems, the
system would “appear to have met the original requirements set forth in
IIRIRA.” However, the INS report went on to state that, “it is doubtful whether
this system can fulfill the specifications of either DMIA or VWPPA. Successive
legislation to IIRIRA clearly calls for a sophisticated entry/exit control system,
which the Automated I-94 is not, nor was intended to be.” In light of the
terrorist attacks of September 11, 2001, the analysis asserted that resources
should be devoted to developing the entry-exit system required by the USA
Patriot Act rather than continuing to spend resources on the Automated I-94
System. The analysis stated that it was in the best interest of the INS to
incorporate the lessons and experience gained from piloting the Automated I-94
System and instead spend its resources on an integrated entry-exit control
system that will meet the specified legislative requirements. The analysis
recommended that the entry-exit system should take priority over redesigning
the Automated I-94 system. On February 18, 2002, the INS officially
terminated the Automated I-94 System project.

       According to an official from the INS’s Statistics Office, the unreliability
of nonimmigrant information continues to be a problem. A basic shortcoming
is the collection of departure records – not only at air POEs, but also at land
POEs where no mechanism exists to collect the forms of those nonimmigrants
who are required to provide them. The Statistics Office estimated that for every
100 arrival forms the INS receives, it receives about 80 to 83 departure forms.
Further, the actual matching process is problematic because of data entry
errors. Duplicate records still exist because the airlines photocopy blank Form
I-94s, causing different aliens to have the same admission number. To
compound the difficulty in identifying overstays, the Statistics Office no longer
receives updates on visa extensions or adjustments of status. Therefore, some
aliens appear to be overstays when they are legally in the United States. The
Statistics Office official acknowledged that current Form I-94 data is not
reliable for:

             •   Estimating the overall overstay rate.



U.S. Department of Justice                                                       8
Office of the Inspector General
Evaluation & Inspections Division
             •   Assisting in determining a country’s continuation in the Visa
                 Waiver Program.

             •   Determining with certainty whether an alien who appears to be an
                 overstay is actually an overstay.

        As noted above, the USA Patriot Act mandated that an Entry-Exit Task
Force be established to create a comprehensive entry-exit system. The task
force project team began meeting in February 2002. The Entry-Exit Task Force
is led by the INS and the U.S. Customs Service of the Department of the
Treasury and includes the Departments of State, Commerce, and
Transportation.5

       The Entry-Exit Task Force has agreed that the first phase of the
comprehensive plan will be to collect information electronically for arrival and
departures of persons participating in the VWP at air and certain sea POEs.
This first phase will provide data that will allow the Attorney General to certify
the continued participation of countries that are enrolled in the VWP. The
Commissioner of INS has pledged to complete this phase by January 2003.

Recommendations 3 and 4

        Conduct an analysis of overstay data that will support the development of
        an overstay enforcement strategy.

        Develop an interior enforcement strategy to address the increasing
        overstay population.

       The INS concurred with the 1997 OIG report’s findings that there were
gaps in the INS’s information on nonimmigrant overstays. The absence of
reliable data from NIIS was one cause. The other was that the INS used little
recent overstay data that was available to it from its benefits and enforcement
programs to better target and direct its enforcement efforts against overstays.
The last INS analysis of the characteristics of the overstay population was



        5 Another advisory task force has been established to discuss changes required by the

Data Management Improvement Act of 2000 (DMIA), Public Law 106-215. The DMIA task force
was created to evaluate how traffic flow at United States airports, seaports, and land border
ports of entry can be improved while enhancing security and establishing systems for data
collection and data sharing. This task force also is led by the INS and the Customs Service and
includes the Departments of State, Commerce, and Transportation. In addition, the DMIA
Task Force has an advisory group that includes members from state and local government and
private organizations.
U.S. Department of Justice                                                                   9
Office of the Inspector General
Evaluation & Inspections Division
issued in 1994.6 The 1994 analysis had updated a 1992 INS study, “Report on
the Legalized Alien Population,” that was based on data provided by aliens who
entered the United States illegally in the early 1980s and then applied for
amnesty after the passage of the Immigration Reform and Control Act of 1986.

       In January 1998, the INS stated its intention to analyze again its records
of apprehension, records of persons removed, and records of illegal aliens who
applied to adjust to legal permanent resident status. This would include the
more current data provided by aliens who applied for adjustment under the
provisions of 245(i) between 1994 and 1997, among whom were thousands of
self-reported overstays.7 The proposed analysis was intended to assist in
developing an enforcement strategy to apprehend overstays.

       As part of this analysis, the INS proposed to carry out an ambitious six-
step plan to assess information available in its automated enforcement and
benefits systems and draw samples from paper records. However, this analysis
proved difficult because the INS records of arrest and benefits did not compile
information on overstays. For example, INS field operation reports did not
contain, nor did the INS produce, aggregate data on the number of overstays
apprehended. By July 1999, the INS had completed only the first step in the
plan (an analysis of occupations and industries of former illegal aliens granted
legalization by method of entry, using surveys of aliens conducted in 1989 and
1992).

      The INS issued a new Interior Enforcement Strategy in 1999 (with an
addendum added in March 2000). Yet, the INS recognized that any
enforcement strategy aimed at overstays needed a comprehensive entry-exit
control system. The 1999 Interior Enforcement Strategy intended to rely on the
proposed Automated I-94 System to identify overstays as part of the strategy.8
But, as discussed above, a reliable automated I-94 system has not been
implemented. The INS now acknowledges that its ability to implement an



        6 “Estimates of the Undocumented Immigrant Population Residing in the United States
by Country of Origin and State of Residence as of October 1992,” Robert Warren, INS Statistics
Division.

       7 This provision allows certain aliens illegally present in the United States, who are

otherwise eligible for immigrant visas, to apply for legal permanent residency for a fee of
$1,130. Prior to enactment of Section 245(i), these overstays had to depart the United States
and apply for an immigrant visa in order to become a legal permanent U.S. resident.

        8 INS investigators also pointed out that even if the Automated I-94 System correctly
identified alien overstays, the U.S. address information provided on the I-94 would be of very
limited value in locating the alien.
U.S. Department of Justice                                                                   10
Office of the Inspector General
Evaluation & Inspections Division
effective interior enforcement strategy for overstays is limited because of this
lack of an accurate entry-exit system to identify individual overstays.




U.S. Department of Justice                                                         11
Office of the Inspector General
Evaluation & Inspections Division
                                    CONCLUSION


       In sum, the INS has made little progress in effectively addressing the
problem of nonimmigrant overstays since we issued our 1997 report. The
terrorist attacks of September 11, 2001, focused renewed attention on the
importance of knowing when nonimmigrant visitors enter and depart the
United States. It is critical for the INS to be able to identify individual
overstays, collect aggregate information on overstays, and develop an effective
interior enforcement strategy for pursuing overstays who are identified as
representing the greatest potential risk to the security of the United States.

      Our original report focused on the weaknesses of the NIIS system that
was, and still is, the INS’s principal means of identifying overstays. At the time
of our original report, the INS expected that its Automated I-94 System would
provide the necessary arrival and departure information to identify overstays
and help in the development of an effective enforcement strategy to address the
problem. However, according to the INS’s recent evaluation, the Automated
I-94 System would not be able to identify overstays or meet the requirements of
the USA Patriot Act, which mandates development of an integrated entry-exit
control system. Consequently, the INS has terminated the Automated I-94
project.

      As a result, the findings from our 1997 report still apply today. The INS
does not have a reliable system to track overstays, does not have a specific
overstay enforcement program, and cannot perform its responsibilities under
the Visa Waiver Program to provide accurate data on overstays.

       It is clear that the key to the timely identification of overstays is an
integrated entry-exit control system. The INS and other federal agencies are
now working together in a task force to develop such a system, with provisions
for biometric identifiers and machine-readable documents. The first phase of
the project will provide data that will allow the Attorney General to certify the
continued participation of countries that are enrolled in the Visa Waiver
Program, and the INS Commissioner has pledged to complete this phase by
January 2003.

      Even if this goal is met, however, completion of the entire entry-exit
system will take years. In the interim, we believe the INS should consider
taking steps to help address the issue of nonimmigrant overstays, such as
implementing the recommendations from our 1997 report regarding the
improvement of collection of departure records by working with airlines to
promote carrier compliance, monitoring carrier compliance, and fining non-
U.S. Department of Justice                                                     12
Office of the Inspector General
Evaluation & Inspections Division
compliant airlines. We recognize that these steps are limited and will not
address the need for a reliable entry-exit system. The success of the INS in
developing such a reliable automated entry-exit system is essential to
addressing the overstay issue. Because of its importance, the OIG intends to
continue to monitor and evaluate the INS’s progress in developing this critical
system.




U.S. Department of Justice                                                    13
Office of the Inspector General
Evaluation & Inspections Division
